                                                           Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   INFORMATION: Notification of Audit— Security                 Date:   March 22, 2005
           and Controls Over the National Driver Register,
           National Highway Traffic Safety Administration
           Project Number 05F3019F000

  From:    Theodore P. Alves                                         Reply to
                                                                     Attn of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology

    To:    National Highway Traffic Safety Administrator

           The Office of Inspector General will perform an audit of the National Driver
           Register (NDR) system, which is managed by the National Highway Traffic
           Safety Administration (NHTSA). NDR provides information on problem drivers
           to state agencies and contains sensitive personal information, such as name, driver
           license number, date of birth, and social security number. This audit will be
           conducted at NHTSA Headquarters in Washington DC, contractor sites, and
           selected state motor vehicle administration offices.

           The objectives of this audit are to determine whether (1) personal identification
           information stored in NDR can be accessed for unapproved use, (2) traffic
           violations are timely and accurately processed for NDR reporting, (3) adequate
           contingency plan exists to ensure business continuity, and (4) risks associated with
           NDR system operations are properly assessed, tested, and mitigated to meet
           minimum Government security standards.

           We will contact your audit liaison to establish an entrance conference in order to
           discuss the audit. The Project Manager for the audit is Nathan Custer. If you have
           questions, please call me, Rebecca Leng, Deputy Assistant Inspector General for
           Information Technology and Computer Security, or Ed Densmore, Program
           Director at (202) 366-1496.

           cc: Chief Information Officer, DOT
               Martin Gertel, M-1
               Zahid Khawaja, NPO-310
